TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      The Excise Files Information Retrieval
                        System Has Not Been Effectively
                                  Implemented



                                           October 2005

                              Reference Number: 2006-20-001




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 October 18, 2005


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                CHIEF INFORMATION OFFICER

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Excise Files Information Retrieval System
                                Has Not Been Effectively Implemented (Audit # 200520030)

 This report presents the results of our review of the management of funds received by the
 Internal Revenue Service (IRS) to prevent and reduce motor fuel excise tax evasion. The overall
 objective of this review was to determine whether the IRS is effectively managing Motor Fuel
 Tax Evasion Project funds to develop the Excise Files Information Retrieval System (ExFIRS)
 and enhance motor fuel excise tax enforcement.

 Synopsis
 The Highway Trust Fund is a critical source of funding for Department of Transportation
 programs financing Federal Government highway construction. Motor fuel excise taxes account
 for over 90 percent of the Highway Trust Fund receipts. In Fiscal Year 2004, motor fuel excise
 taxes totaled nearly $36 billion. The IRS developed the ExFIRS to identify areas with the
 highest risk for nonpayment of motor fuel excise tax liabilities.1 The most critical ExFIRS
 subsystem is the Excise Summary Terminal Activity Reporting System (ExSTARS), which was
 designed to track the movement of motor fuel to and from approved terminals by requiring the
 monthly submission of information documents to the IRS reflecting fuel quantity and type. This
 information can be used to compare the quarterly fuel volumes reported on the information
 documents to the information taxpayers entered on their quarterly excise tax returns to identify
 for examination those returns on which taxpayers appear to be in noncompliance. Since 1999,
 the ExFIRS Project Office has received approximately $39 million from the Department of

 1
     See Appendix IV for a description of the ExFIRS subsystems.
                      The Excise Files Information Retrieval System Has Not Been
                                        Effectively Implemented



Transportation and an additional $20 million in IRS funds for the development and
implementation of the ExFIRS.
However, the IRS has not effectively implemented the ExFIRS or maximized its return on
investment by using the ExSTARS data analysis to identify and research potential tax
compliance issues for referral to the Examination function. Reporting gaps in the movement of
motor fuel also hinder the effectiveness of the ExSTARS to completely monitor fuel production
and sales. The lack of certain data fields in the information documents submitted to the IRS
prevents the elimination of duplicate filing of fuel transaction data to both the IRS and the States.
In addition, the IRS has worked with information document filers for several years to improve
their reporting accuracy, and indications are the data perfection issue will continue to pose a
significant problem when mandated electronic filing becomes effective on January 1, 2006.
There has also been a lack of sufficient executive oversight and project management
documentation, which has contributed to the ExFIRS Project experiencing cost overruns and
schedule delays. Although classified as a nonmajor information technology investment, the
ExFIRS Project meets the IRS’ cost thresholds for a major information technology investment.
The importance of the ExFIRS to the IRS’ mission and the high external visibility of the
development effort warrant a more stringent capital planning and investment control process. In
addition, the Federal Highway Administration has relied on the IRS and its contractors to design,
develop, implement, and provide program oversight for the ExFIRS Project. While the ExFIRS
Project Office maintained documents considered essential to effective project management and
prepared monthly status reports addressing issues and problems, some key project management
documents were not initially prepared and are still incomplete. A capacity study and stress test
were also not completed for the ExSTARS to ensure system capacity will be sufficient prior to
the electronic filing mandate, effective January 1, 2006.
In addition, the task orders2 awarded to the primary contractor for the ExFIRS Project are
cost-plus-fixed-fee contracts 3 and the contracts awarded to the secondary contractor are time and
materials contracts;4 however, such contracts are generally not appropriate once it is determined
the development of a system is achievable and the duration and extent of work and anticipated
costs can be accurately estimated. Performance standards and acceptable quality levels were also
not consistently documented and measurable for the statements of work.5 In addition, the
acceptance criteria section generally defined requirements for the format, accuracy, clarity, and


2
  A task order is an order for services placed against an established contract or with Federal Government sources.
3
  A cost-plus-fixed-fee contract is a cost-reimbursement contract that provides for payment to the contractor of a
negotiated fee that is fixed at the inception of the contract. The fixed fee does not vary with actual cost but may be
adjusted as a result of changes in the work to be performed under the contract.
4
  A time and materials contract provides for direct labor hours at specified fixed hourly rates (wages, overhead,
general and administrative expenses) and for materials (including handling costs) at cost.
5
  A statement of work is a written description of the IRS’ minimum requirements that are to be met by contract.
                                                                                                                         2
                      The Excise Files Information Retrieval System Has Not Been
                                        Effectively Implemented



timeliness of the deliverables in nonmeasurable terms, and the due dates were generally not
specific.

Recommendations
We recommended the Commissioner, Small Business/Self-Employed (SB/SE) Division, develop
a plan and schedule as soon as possible for initiating an examination program based on identified
discrepancies; clarify whether or not an objective of the ExSTARS is to eliminate the
requirement for duplicate filing of fuel transaction data by the motor fuel industry to both the
IRS and the States by either identifying and addressing the issues that prevent single point of
filing or removing the stated objective from IRS publications; develop a schedule for converting
all filers to the new data transmission format and begin assessing the $10,000 penalty for failure
to file complete and accurate information documents; and ensure the ExFIRS Project Office
updates appropriate project management documents, conducts a stress test to ensure sufficient
system capacity, completes a transition plan for moving the Project to operations and
maintenance status, and schedules a postimplementation review. In addition, we recommended
the Commissioner, SB/SE Division, work with the Chief Information Officer (CIO) to include
Federal Highway Administration representation on the executive steering committee responsible
for the ExFIRS Project, including involvement with program management and executive
oversight when the ExFIRS Project moves from development to operations and maintenance
status, and provide periodic status reports as requested by the Federal Highway Administration to
assess the progress of the ExFIRS Project and support continued funding. We also
recommended the Commissioner, SB/SE Division, coordinate with the CIO and the Director,
Procurement, to ensure the ExFIRS Project Office includes measurable performance standards in
statements of work, clearly defines deliverables, implements an effective plan for monitoring
contractor performance, and changes to firm fixed-price contracts.6 Finally, we recommended
the CIO elevate the ExFIRS to a major information technology investment.

Response
IRS management agreed with five of our seven recommendations presented. The IRS is
currently establishing an ExFIRS Compliance Operation to conduct preliminary analysis and
screening of questionable transactions for referral to revenue agents specialized in fuel tax
compliance beginning in Fiscal Year 2006. In addition, the Commissioner, SB/SE Division, will
remove any references to single point of filing in their publications. The IRS has also completed
development, testing, and installation of the upgraded ExSTARS and is currently developing a

6
 A firm fixed-price contract provides for a price that is not subject to any adjustment on the basis of the contractor’s
cost experience in performing the contract. This contract type places maximum risk and full responsibility on the
contractor for all costs and resulting profit or loss.
                                                                                                                       3
                  The Excise Files Information Retrieval System Has Not Been
                                    Effectively Implemented



schedule for converting all filers to the new data transmission format. In addition, the IRS is
identifying entities that should be subjected to the $10,000 penalty for failure to file complete
and accurate information and will immediately assess penalties in appropriate situations.
Additionally, the CIO will reclassify the ExFIRS as a major project, and the Modernization and
Information Technology Services (MITS) organization will identify and correct gaps in project
management documentation, as well as ensure new development is managed under the
appropriate life cycle discipline and follow appropriate tailoring plans to ensure the appropriate
project management, transition, and systems management documentation is developed.
IRS management partially agreed with our recommendation to include Federal Highway
Administration representation on the executive steering committee responsible for the ExFIRS
Project, including involvement with program management and executive oversight when the
ExFIRS Project moves from development to operations and maintenance status. The IRS stated
a representative from the Federal Highway Administration will participate as a member of the
appropriate executive steering committee for the ExFIRS Project and the requirements of the
partnership between the IRS and Federal Highway Administration will be reflected in the revised
Memorandum of Understanding to ensure the needs of both agencies are considered. IRS
management also partially agreed with our recommendation to ensure the ExFIRS Project Office
includes measurable performance standards in statements of work, clearly defines deliverables,
implements an effective contractor monitoring plan, and moves to firm fixed-price contracts.
The IRS stated the MITS organization will ensure statements of work include measurable
performance standards and deliverables are clearly defined. In addition, the MITS organization
will enter firm fixed-price contracts when possible and seek to use the appropriate
performance-based contracting approach if a firm fixed-price contract is not possible.

Office of Audit Comment
IRS management did not specifically comment on our recommendation to complete a transition
plan, conduct a stress test, and schedule a postimplementation review. We believe these actions
are needed to assure an effective transition to the MITS organization and to verify the ExFIRS
system is working properly. On those recommendations where IRS management partially agreed
with our recommendations, we believe the corrective actions they plan to take will address the
recommendations. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Program), at
(202) 622-8510.



                                                                                                     4
                         The Excise Files Information Retrieval System Has Not Been
                                           Effectively Implemented




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Excise Files Information Retrieval System Information Should Be
          Used to Enhance Tax Enforcement Activities and Increase Highway
          Trust Fund Revenue......................................................................................Page 5
                    Recommendation 1:........................................................Page 8

          Significant Issues Require Management Attention to Successfully
          Implement a System to Prevent and Detect the Existence of Motor
          Fuel Excise Tax Evasion and Enhance Compliance Enforcement
          Activities .......................................................................................................Page 8
                    Recommendations 2 and 3: ..............................................Page 12

          Project Oversight and Management Need to Be Improved for the
          Development and Implementation of the Excise Files Information
          Retrieval System ...........................................................................................Page 12
                    Recommendations 4 though 6: ..........................................Page 18

          The Project Office Should Incorporate More Performance-Based
          Services Acquisition Principles for Acquired Services ................................Page 19
                    Recommendation 7:........................................................Page 22


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 23
          Appendix II – Major Contributors to This Report ........................................Page 25
          Appendix III – Report Distribution List .......................................................Page 26
          Appendix IV – Subsystems of the Excise Files Information Retrieval
          System...........................................................................................................Page 27
          Appendix V – Management’s Response to the Draft Report ......................Page 29
                      The Excise Files Information Retrieval System Has Not Been
                                        Effectively Implemented




                                              Background

The Fiscal Year (FY) 2005 Department of the Treasury Congressional Directives included a
request that the Treasury Inspector General for Tax Administration, in consultation with the
Inspector General, Department of Transportation, conduct an audit to evaluate Internal Revenue
Service (IRS) management of funds received from the Department of Transportation to prevent
and reduce motor fuel excise tax evasion by developing an excise fuel reporting system and
enhancing motor fuel excise tax examinations and criminal investigations. This request was
based on the continued existence of motor fuel excise tax evasion despite prior investments in
IRS enforcement activities and the concern that the IRS has previously experienced problems in
developing information systems.
The IRS administers more than 40 separate excise taxes that finance 6 separate trust funds.1 The
Highway Trust Fund, which is a critical source of funding for Department of Transportation
programs, was established as a mechanism to provide dependable financing for Federal
Government highway construction. The Highway Trust Fund receives its revenue from highway
user taxes, including excise taxes on motor fuels and truck-related taxes on truck tires, sales of
trucks and trailers, and heavy vehicle use. The Highway Trust Fund is the largest of the
6 trust funds administered by the IRS and represents 70 percent of all excise taxes collected.
Motor fuel excise taxes account for over 90 percent of the Highway Trust Fund receipts. In
FY 2004, motor fuel excise taxes totaled nearly $36 billion.
Prior to 1982, evasion of motor fuel excise taxes was not a significant problem because the
Federal tax on gasoline and diesel fuels was only $0.04 per gallon. However, significant
increases in Federal and State excise tax rates over the years have increased incentives for tax
evasion. To reduce the opportunities for taxpayers to evade motor fuel excise taxes, the point of
taxation for motor fuels was changed. Motor fuel is now taxed, or dyed red if it is intended for
nontaxable purposes, when it moves out of the bulk transportation system (pipeline and vessel)
and storage network (refinery2 and terminal3) and into tanker trucks at the terminal rack.4 The
owner of the fuel, referred to as the registered position holder, is liable for payment of the tax as
fuel passes the terminal rack. Taxpayers report their excise tax liabilities on Quarterly Federal
Excise Tax Returns (Form 720), which are due 1 month following the close of the quarter.


1
  Trust funds are accounts established by law to hold receipts, such as specific taxes or revenue, collected by the
Federal Government for financing special programs.
2
  A refinery is a facility used to produce taxable fuel from crude oil, unfinished oils, natural gas liquids, or other
hydrocarbons.
3
  A terminal is a storage and distribution facility for taxable fuel that is supplied by pipeline or vessel.
4
  A terminal rack is a location at the terminal consisting of a series of valves, pipes, and meters where motor fuel is
dispensed.
                                                                                                                Page 1
                     The Excise Files Information Retrieval System Has Not Been
                                       Effectively Implemented



While shifting the point of taxation on motor fuel to the terminal rack and requiring untaxed
motor fuels to be dyed red have increased Highway Trust Fund revenue, opportunities continue
to exist to avoid or underpay excise taxes. The IRS estimates that $1 billion in Highway Trust
Fund revenue is being lost each year due to the mixing of motor fuel with other products to
increase the fuel volume and reduce the effective tax rate. Another study completed by private
industry in 2002 estimated the diversion of untaxed aviation jet fuel to highway use is costing the
Highway Trust Fund an additional $1 billion annually. At the same time, the Department of
Transportation reports demands on highway capacity have reached unprecedented levels, and
replacement and rehabilitation costs for existing infrastructure have greatly increased. As a
result, the Department of Transportation and the IRS consider the evasion of motor fuel excise
taxes a serious and growing problem that is creating a significant drain on Highway Trust Fund
receipts.
To enhance the IRS’ excise tax enforcement and compliance activities, Congress passed the
Transportation Equity Act for the 21st Century5 (TEA-21) in June 1998, which authorized monies
to be appropriated out of the Highway Trust Fund and given to the IRS for Motor Fuel Tax
Evasion Projects. The TEA-21 authorized $5 million to be given to the IRS in each of
FYs 1998 through 2003 to expand enforcement efforts, supplement examinations and criminal
investigations, and develop an excise fuel reporting system. To meet the legislative
requirements, the IRS developed the Excise Files Information Retrieval System (ExFIRS), which
is an umbrella system comprised of nine subsystems6 that support the collection of motor fuel
industry information, allow automated analysis of this information, and help identify areas with
the highest risk for nonpayment of motor fuel excise tax liabilities. The most critical ExFIRS
subsystem is the Excise Summary Terminal Activity Reporting System (ExSTARS), which was
designed through a collaborative effort among the IRS, the Federal Highway Administration, and
State and industry stakeholders7 to prevent and detect the existence of illegal tax evasion
schemes by tracking the movement of motor fuel to and from approved terminals. The IRS
began development of the ExSTARS in 1998 and reported to Congress that the subsystem was
implemented in April 2001.8
Since the expiration of the TEA-21 on September 30, 2003, several extensions have been passed
by Congress authorizing $5 million from the Highway Trust Fund for FY 2004. For
FY 2005, Congress authorized $4 million through July 19, 2005. As illustrated in Figure 1, the
ExFIRS Project Office, which is responsible for overseeing the technical, administrative, and
management aspects for the development and implementation of the ExFIRS and providing


5
  Pub. L. No. 105-178, 112 Stat. 107 (1998).
6
  See Appendix IV for a description of the subsystems.
7
  A stakeholder is a group or individual affected by, or in some way accountable for, the outcome of an undertaking.
Stakeholders may include project members, suppliers, customers, and end users.
8
  The ExFIRS Project Office explained that, although the ExSTARS was implemented in April 2001, the subsystem
was not considered fully operational at that time and the participation by information document filers was limited.
                                                                                                            Page 2
                    The Excise Files Information Retrieval System Has Not Been
                                      Effectively Implemented



funds to supplement motor fuel excise tax enforcement activities and criminal investigations,
received approximately $59 million in Department of Transportation and IRS funds between
FYs 1999 and 2005. The annual amounts provided from the Highway Trust Fund were adjusted
since the TEA-21 was not passed in time to provide funding to the IRS for FY 1998; the amounts
received each year from the Department of Transportation were based on actual funding
requirements determined by the IRS. Recent legislation continues substantial Highway Trust
Fund funding to the ExFIRS Project Office through FY 2009,9 and additional IRS funding is
expected through the end of FY 2008.


        Figure 1: ExFIRS Project Office Funding Between FYs 1999 and 2005

               Amount Provided
      Fiscal   by the Department     Amount Provided
      Year     of Transportation       by the IRS           Annual Amount       Cumulative Amount
      1999         $9,250,000            $2,417,662           $11,667,662           $11,667,662
      2000         $7,923,000            $2,101,000           $10,024,000           $21,691,662
      2001         $4,468,000            $2,720,531            $7,188,531           $28,880,193
      2002         $4,609,000            $1,798,000            $6,407,000           $35,287,193
      2003         $4,706,500            $1,886,000            $6,592,500           $41,879,693
      2004         $4,800,000            $4,959,000            $9,759,000           $51,638,693
      2005         $3,600,000            $3,613,000            $7,213,000           $58,851,693
      Totals      $39,356,500            $19,495,193          $58,851,693

    Source: ExFIRS Project Office spending plans.




9
 House of Representatives Bill (H.R.3), which passed the Senate with amendment on May 17, 2005, and was signed
by the President on August 10, 2005, provides additional funds from the Highway Trust Fund to the IRS for
FYs 2006 through 2009.
                                                                                                      Page 3
                 The Excise Files Information Retrieval System Has Not Been
                                   Effectively Implemented



Figure 2 provides a breakdown of the actual expenditures between FYs 1999 and 2004, which
reflects that most of the funding received by the ExFIRS Project Office was associated with the
development and implementation of the ExFIRS.
     Figure 2: ExFIRS Project Office Expenditures in FYs 1999 Through 2004


                             Expenditure Category                   Amount

                1. Development and Implementation of the
                                                                     $39,897,755
                ExFIRS
                2. Research and Development Related to Fuel
                Evasion Detection Methods and Equipment and          $10,990,938
                Analysis of Fuel Samples
                3. Supplement of Criminal Investigations                $750,000
                                      Total                          $51,638,693

              Source: ExFIRS Project Office spending plans.

This audit was performed at the IRS Office of Excise Tax Operations within the Small
Business/Self Employed (SB/SE) Division and the Department of Transportation Offices of the
Federal Highway Administration and Inspector General in Washington, D.C., during the period
January through June 2005. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                          Page 4
                   The Excise Files Information Retrieval System Has Not Been
                                     Effectively Implemented




                                    Results of Review

Excise Files Information Retrieval System Information Should Be
Used to Enhance Tax Enforcement Activities and Increase Highway
Trust Fund Revenue

One of the goals in the IRS Strategic Plan 2005 – 2009 is to enhance enforcement of the tax law
to collect the taxes due from taxpayers that do not fulfill their tax obligations. The IRS Office of
Excise Tax Operations within the SB/SE Division is responsible for the enforcement and
compliance activities associated with motor fuel excise taxes. To accomplish the IRS goal, there
are approximately 120 fuel compliance officers, whose responsibilities include conducting
periodic inspections of onroad vehicles on highways for misuse of dyed diesel fuels. The IRS
also has approximately 244 revenue agents, considered to be excise tax specialists, who spend
approximately 19 percent of their time examining Forms 720 to ensure motor fuel excise tax
compliance. Figures 3 and 4 illustrate the results of the fuel compliance officers’ and revenue
agents’ activities for FYs 2000 through 2004.


Figure 3: Fuel Compliance Officer                       Figure 4: Revenue Agent Results
            Results

                                         Penalty                   Form 720
   FY     Inspections     Violations     Amount           FY      Examinations      Taxes Assessed
  2000       77,005         1,260       $2,320,930       2000         1,791          $179,966,047
  2001       72,266         1,026       $2,467,060       2001         1,067          $107,895,276
  2002       98,117         1,081       $2,815,530       2002          994            $56,142,040
  2003      121,244         1,418       $3,875,740       2003         1,350           $18,040,076
  2004      122,489         1,263       $4,684,240       2004         1,293           $90,151,206

Source: IRS Office of Excise Tax Operations.           Source: IRS Office of Excise Tax Operations.

The IRS Criminal Investigation Division is responsible for investigating potential criminal
violations of the Internal Revenue Code and related financial crimes to foster confidence in the
tax system and compliance with the law. However, the passage of legislation in 1993 changing
the point of taxation on motor fuels (from retail outlets to the terminal rack where fuel is loaded
into tanker trucks) resulted in a dramatic decrease in the number of criminal investigations and

                                                                                                 Page 5
                    The Excise Files Information Retrieval System Has Not Been
                                      Effectively Implemented



assessments. For example, Congressional testimony indicates the Criminal Investigation
Division uncovered fuel excise tax evasion activity in the hundreds of millions of dollars prior
to 1993; however, in FY 2004, the IRS initiated only 2 criminal investigations and assessed only
$719,790 in criminal deficiencies.
Implementation of the ExSTARS was to increase Highway Trust Fund revenue by providing an
efficient and accurate way to identify potentially noncompliant taxpayers to ensure collection of
the appropriate excise tax revenue. The ExSTARS tracks the movement of fuel to and from
approved terminals by requiring the monthly submission of a Terminal Operator Report
(Form 720-TO) and a Carrier Summary Report (Form 720-CS) to the IRS reflecting fuel quantity
and type. According to the IRS, the data on these information documents could be used to
compare the quarterly fuel volumes to the data taxpayers entered on their Forms 720. Significant
discrepancies would be referred to the IRS Excise Tax Program for further analysis to identify
for examination those Forms 720 on which taxpayers appear to be in noncompliance. This
compliance process is similar to the IRS Underreporter Program, which matches income and
deduction amounts on income tax returns submitted by taxpayers to the information provided to
the IRS by third parties on information documents, such as the Wage and Tax Statement
(Form W-2). When these amounts do not match, potential underreporter cases are referred for
examination. The information documents for the Underreporter Program can be submitted by
third parties to the IRS either on paper or electronically. The paper information documents are
scanned using the Service Center Recognition Image Processing System.10
The IRS reported to Congress that the ExSTARS was implemented in April 2001 and it planned
to begin the compliance process of matching the information document data against data on
Forms 720 filed for the quarter beginning January 1, 2004. The ExSTARS was intended to
permit both the receipt of electronic submissions and the scanning of paper submissions to create
a complete picture of fuel movements, but the detailed transactions are not being scanned and
cannot be included in the matching process. In April 2005, the IRS reported to Congress that the
use of the ExSTARS to detect underreported tax on individual Forms 720 and generate
additional Highway Trust Fund revenue has been limited because only 70 percent of the
6 to 9 million monthly fuel transactions are received electronically and it is cost prohibitive to
transcribe the detailed information associated with the remaining transactions filed on paper
Forms 720-TO and 720-CS. While the IRS is using the ExSTARS to conduct the matching of
the electronically filed information document data to the Form 720 data, it elected not to refer
identified potential exception cases for examination until electronic filing is mandated to
substantially increase the number of information documents being received electronically.
Although it is not generating examination cases, the IRS maintains it has been able to identify
failures to comply with the information reporting requirements, unusual and/or questionable
movements of fuel, and leads for possible noncompliance. The IRS was unable to provide

10
  The Service Center Recognition Image Processing System uses character recognition and imaging technologies to
process high volumes of documents with few unrecognized characters.
                                                                                                       Page 6
                     The Excise Files Information Retrieval System Has Not Been
                                       Effectively Implemented



information showing the results of these activities; however, the ExFIRS Project Office
stated 1 lead identified from the analysis of ExSTARS data for excise tax noncompliance could
result in a $6 million assessment.
The Chief, Excise Tax Operations, explained the cases are not being referred for examination
because 1) it is unfair to treat taxpayers who file their tax returns electronically different from
taxpayers who file on paper and 2) the data used in the matching process are still being perfected.
The Chief could not specifically tell us when exception cases would begin to be referred for
examination. However, our review of the ExSTARS matching process determined all Forms 720
would be subjected to the compliance process of matching the tax return information against the
data contained on the electronically filed information documents, regardless of whether
taxpayers filed their Forms 720 electronically.
The results of 1 matching analysis completed by the ExFIRS Project Office on the information
documents filed electronically on the ExSTARS and the Form 720 tax returns submitted for the
second quarter of FY 2003 reflected that 11 entities had potentially underreported the taxable
gasoline on their Forms 720 by nearly 110 million gallons. At the current excise tax rate of
$0.184 per gallon, the underreported gasoline would represent excise tax evasion of
approximately $20 million.11 In addition, our review of the matching results for the second,
third, and fourth quarters of 2004 provided by the ExFIRS Project Office identified potential
underreporting of motor fuel excise taxes. However, the Chief, Excise Tax Operations,
explained that the ExFIRS Project Office does not currently use Form 720 data from the
Master File12 in the information matching process but instead used a preliminary data file that has
not yet posted to the Master File. Therefore, the matching results are not reliable. In addition,
the ExFIRS Project Office has identified instances where the IRS Master File reflects a
Form 720 was filed while the matching routine erroneously reflects a Form 720 was not filed.
We understand the IRS’ concern that the data are not perfected and, therefore, may not represent
an actual noncompliance situation. However, when the information indicates a potential tax
noncompliance situation, the IRS should further research the information to determine whether a
noncompliance situation does exist and, if so, refer it for examination, while the IRS continues to
improve the ExSTARS and increase the number of electronically filed information documents.
On August 4, 2005, the Chief, Excise Tax Operations, indicated there are plans to revise the
matching process so that the ExFIRS data is matched against actual Master File data which
should result in an improved matching process to identify actual noncompliance.
Stakeholders alerted the ExFIRS Project Office in October 2000 that the lack of mandated
electronic filing and the IRS’ decision not to key enter the data from the paper-filed information

11
   The ExFIRS Project Office explained that the amount of actual tax evasion may not be as high as $20 million
because the Form 720 data used in the compliance process are obtained prior to the complete processing of the
Forms 720 by the IRS.
12
   The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                            Page 7
                    The Excise Files Information Retrieval System Has Not Been
                                      Effectively Implemented



documents were major issues that would significantly affect the usefulness of the ExSTARS to
the States and not provide the full national terminal reporting system as promised in 1998. The
stakeholders also commented that the lack of mandated electronic filing will affect the capability
of the IRS to match the submitted information documents to the Forms 720. With passage of the
American Jobs Creation Act of 2004,13 electronic filing was mandated beginning
January 1, 2006, for Forms 720-TO and 720-CS with 25 or more transactions. The IRS now
reports that, once the information document database is populated sufficiently throughout 2006,
it will be in a position to begin fully using the ExSTARS to detect unreported transactions
subject to excise taxes and to verify the tax liabilities reported on the quarterly Forms 720.
However, by not currently using the ExSTARS data analysis to identify potential tax compliance
issues, the IRS is not maximizing the return on investment of the ExFIRS.


Recommendation
Recommendation 1: The Commissioner, SB/SE Division, should develop a plan and
schedule as soon as possible for initiating an examination program based on identified
discrepancies between the information documents and the tax returns.
        Management’s Response: The Commissioner, SB/SE Division, agreed with this
        recommendation, stating the IRS is currently establishing an ExFIRS Compliance
        Operation to conduct preliminary analysis and screening of questionable transactions.
        The ExFIRS Compliance Operation will refer questionable transactions to revenue agents
        specialized in fuel tax compliance beginning the first quarter of FY 2006.


Significant Issues Require Management Attention to Successfully
Implement a System to Prevent and Detect the Existence of Motor
Fuel Excise Tax Evasion and Enhance Compliance Enforcement
Activities

The Department of the Treasury Information Technology Manual and the IRS system
development guidelines stipulate that, as part of the information system life cycle14 management
process, project management should identify project risks early and manage them before they
become problems. The risk management process encompasses the identification of risk issues,
assessment of risk to define probability and impact, preparation and implementation of risk
mitigation and risk contingency plans, and continuous monitoring of those actions to ensure

13
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
14
  The information system life cycle involves the phases through which an information system passes from
beginning to end.
                                                                                                          Page 8
                   The Excise Files Information Retrieval System Has Not Been
                                     Effectively Implemented



effectiveness. Risk management is used to ensure critical areas of uncertainty are surfaced early
enough to be addressed without adversely affecting cost, schedule, technical, or programmatic
performance.
The ExFIRS Project Office established a risk management process to identify and track risks for
resolution. For example, the ExFIRS Project Office developed a Risk Management Plan
containing the procedures for performing the identification, assessment, containment, and
closure of performance risks and related management issues. In addition, the ExFIRS Project
Office prepares monthly status reports addressing issues and problems, developed a risk
management database tool to track risks to resolution, and established a stakeholder team to
address stakeholder issues surrounding development of the ExSTARS. Although the IRS
reported the ExSTARS was implemented in April 2001, significant issues still requiring
management attention preclude the ExSTARS from effectively preventing and detecting the
existence of motor fuel excise tax evasion. These risks include reporting gaps in the movement
of motor fuel and continued data perfection problems with submitted returns.

Reporting gaps in the movement of motor fuel

The ExSTARS was designed to track all motor fuel movements in and out of approved terminals
and to share the information with State taxing agencies. However, reporting gaps in the
movement of motor fuel hinder the effectiveness of the ExSTARS to completely monitor fuel
production and sales. For example, at the onset of the ExSTARS development effort, the
stakeholders and the ExFIRS Project Office recognized that certain carriers (i.e., truck, rail, and
foreign vessel) would be exempted from reporting deliveries to the terminal. The ExSTARS also
would not include fuel distribution reporting at the refineries, unregulated terminals, and bulk
storage facilities.
In addition, one of the objectives of the IRS Excise Tax Program according to Publication 3536,
Motor Fuel Excise Tax EDI Guide, is to eliminate the requirement for duplicate filing of fuel
transaction data by the motor fuel industry to both the IRS and the States. In order to facilitate
single point of filing, filers submitting information documents on the ExSTARS are encouraged
to sign consents to allow the IRS to disseminate the motor fuel information to the State agencies
responsible for motor fuel taxes. However, the information documents submitted to the IRS lack
certain data fields required by some States, such as the name of the distributor and buyer and
seller information. Therefore, the ExSTARS has not provided a single point of filing, and
several States have developed their own electronic filing systems to receive the fuel transaction
data. On August 4, 2005, the Chief, Excise Tax Operations, advised us that the ExSTARS can
only facilitate single point of filing if fuel is taxed at the terminal rack by the State; however, the
IRS cannot build a system to meet the needs of all States and did not intend for the ExSTARS to
provide single point of filing. The Chief explained the IRS does not require the additional data


                                                                                                Page 9
                       The Excise Files Information Retrieval System Has Not Been
                                         Effectively Implemented



fields required by some States and has no legal authority to require the motor fuel industry to
provide the additional data fields.

Continued data perfection problems with submitted returns

Although companies with 25 or more transactions in a month will be required to file
Forms 720-TO and 720-CS electronically starting January 1, 2006, indications are the data
perfection issue will continue to pose a significant problem with submitted documents when the
electronic filing mandate becomes effective. In 2003, the ExFIRS Project Office formed the
Data Perfection Team to correct inaccuracies associated with information documents received by
the ExSTARS and to ensure future documents were transmitted accurately. The monthly status
reports submitted by the Data Perfection Team reflected that several companies continue to
submit inaccurate information documents month after month. Although the American Jobs
Creation Act of 2004 established a $10,000 penalty for failure to file complete and accurate
information documents (effective January 1, 2005), the IRS elected not to assess the penalty
while working with the filers to perfect their information documents on the ExSTARS prior to
the January 1, 2006, electronic filing deadline.
In addition, management reports were not periodically generated to identify the magnitude of the
data perfection problem and to ensure the effective tracking of the progress in resolving the data
integrity issues. The inaccuracies in the data occurred because most filers transmitting the
information documents electronically use an older Electronic Data Interchange (EDI)15 format
(EDI 4010), which does not provide error messages alerting filers of the failure to transmit the
information document or inaccuracies in the data. Prior to January 1, 2006, the IRS plans to
implement an updated data transmission format (EDI 4030) that will alert filers of errors in
filing; however, the IRS plans to run both data transmission formats simultaneously. As a result,
the data inaccuracies will continue because filers can continue to use the older format to transmit
motor fuel information documents after January 2006 and the Chief, Excise Tax Operations, has
not prepared a transition strategy and schedule to convert all filers to the new data transmission
format.
The IRS has also experienced a recent decline in electronic filing participation on the ExSTARS,
which will hamper its efforts to address the data integrity issue since new electronic information
document filers will likely encounter data perfection problems. The IRS reported that, when the
ExSTARS was first implemented in April 2001, it received information documents from only
894 (66 percent) of 1,346 registered terminals. As a result of outreach efforts with industry
groups and individual taxpayers, in April 2004 the IRS reported it had received information
documents from over 96 percent of registered terminals. However, the IRS also reported it
receives 30 percent of the monthly fuel transactions on paper. While the electronic filing

15
     EDI is a computer-to-computer exchange of routine business data in a standard format.
                                                                                             Page 10
                     The Excise Files Information Retrieval System Has Not Been
                                       Effectively Implemented



mandate will become effective January 1, 2006, the number of terminals filing electronically to
report fuel deliveries is actually decreasing as the deadline approaches. For example, Figure 5
illustrates the number of terminals filing electronically to report deliveries decreased from 905 in
February 2004 to only 613 in February 2005, a decrease of over 32 percent. The IRS attributes
the decrease in electronic filing to the selling off of terminals by the larger entities to new and
smaller operators that are filing paper information documents.

             Figure 5: Number of Terminals Filing Electronically Between
                         February 2004 and February 2005


            1000      905 896 884 886 878 864 881
             900                                  837 800 795
                                                              785
             800                                                                                                                    702
             700                                                                                                                             613
             600
             500
             400
             300
             200
             100
               0
                                                                                                                 4
                                                             -0 4




                                                                                                                                   -0 5
                      - 04

                                   4




                                                                                                                                             - 05
                                                                                 4

                                                                                           4




                                                                                                                            4
                                                                     -04
                                             4

                                                      4




                                                                                                  t- 04
                               r- 0




                                                                                                             v-0
                                                                             g- 0

                                                                                       p- 0
                                         r- 0




                                                                                                                        c-0
                                                   y-0

                                                          Jun




                                                                                                                                Jan
                                                                    Jul
                   Feb




                                                                                                                                          Feb
                             Ma

                                       Ap




                                                                                               Oc

                                                                                                          No
                                                                           Au

                                                                                     Se




                                                                                                                     De
                                                 Ma




          Source: IRS Office of Excise Tax Operations.

By addressing these outstanding issues, the IRS could improve the effectiveness of the
ExSTARS to completely monitor fuel production and sales, promote a single point of filing for
the motor fuel industry, enhance the usefulness of the ExSTARS to the States, and facilitate the
IRS’ efforts to match the submitted information documents to the Forms 720. Although the IRS
communicated to Congress that establishment of a significant penalty for failure to file
information documents, coupled with the mandated electronic filing effective January 1, 2006,
will enable it to successfully implement the ExSTARS as it was designed, the continued data
perfection problems will prevent the ExSTARS from reliably detecting unreported motor fuel
transactions subject to excise taxes. As a result, in January 2006 excise tax evasion may not be
detected to increase revenue for the Highway Trust Fund, and expected gains in efficiency may
not be realized.




                                                                                                                                                    Page 11
                  The Excise Files Information Retrieval System Has Not Been
                                    Effectively Implemented




Recommendations
Recommendation 2: The Commissioner, SB/SE Division, should clarify whether or not an
objective of the ExSTARS is to eliminate the requirement for duplicate filing of fuel transaction
data by the motor fuel industry to both the IRS and the States by either identifying and
addressing the issues that prevent single point of filing or removing the stated objective from
Publication 3536.
       Management’s Response: The Commissioner, SB/SE Division, agreed to remove
       any references to single point of filing in their publications to avoid any confusion since
       the IRS is not authorized to direct single point of filing.
Recommendation 3: The Commissioner, SB/SE Division, should develop a schedule for
converting all filers to the new data transmission format and begin assessing the $10,000 penalty
for failure to file complete and accurate information documents, as authorized by the American
Jobs Creation Act of 2004.
       Management’s Response: The Commissioner, SB/SE Division, agreed with this
       recommendation, stating the IRS has completed development, testing, and installation of
       the upgraded ExSTARS using EDI 4030 and is currently developing a schedule for
       converting all filers to the new data transmission format. To ensure all filers can begin
       electronically filing by January 1, 2006, the IRS will initiate broad-based and individual
       outreach and education to the entities currently filing paper returns. In addition, the IRS
       is currently identifying entities that should be subjected to the $10,000 penalty for failure
       to file and/or failure to file accurate information as mandated by the American Jobs
       Creation Act of 2004 and will immediately assess penalties in appropriate situations.


Project Oversight and Management Need to Be Improved for the
Development and Implementation of the Excise Files Information
Retrieval System

The TEA-21 required the Department of Transportation to enter into a Memorandum of
Understanding with the IRS regarding the development and maintenance of an excise fuel
reporting system by the IRS. The Memorandum of Understanding established that the priority
for the use of available funding by the IRS was to establish and operate the ExFIRS. Although
the ExFIRS Project Office was unable to provide an initial cost estimate and implementation
schedule, indications are the Project has experienced considerable cost overruns and schedule
delays. For example, the expectation was the over $30 million initially provided by the Highway
Trust Fund through FY 2003 would be sufficient to develop the ExFIRS. However, by the end

                                                                                            Page 12
                     The Excise Files Information Retrieval System Has Not Been
                                       Effectively Implemented



of FY 2004, the Project Office had spent nearly $40 million on ExFIRS development. An
October 2000 ExFIRS Project status report also stated the ExFIRS was on target to be completed
by September 2003. However, the implementation date for the ExFIRS is currently scheduled
for September 30, 2008.
The cost overruns and schedule delays signify a need for improved project oversight and
monitoring for the development and implementation of the ExFIRS. Specifically, the ExFIRS
Project should be classified as a major information technology investment by the IRS to ensure
increased executive oversight, the Federal Highway Administration should have increased
involvement in program management and financial oversight, and key project management
documents should be improved to meet system development life cycle requirements.

The ExFIRS Project should be classified as a major information technology
investment to ensure increased executive oversight

The Clinger-Cohen Act of 199616 requires agencies to use a disciplined Capital Planning and
Investment Control (CPIC)17 process to acquire, use, maintain, and dispose of information
technology assets. In addition, Office of Management and Budget (OMB) Circular A-11,
Preparation, Execution, and Submission of the Budget, requires each agency to include an
information technology Investment Portfolio, commonly referred to as an Exhibit 53, with its
annual budget submission to the OMB containing the information technology investment title,
description, amount, and funding source. The required information allows the OMB to review
and evaluate each agency’s information technology spending and to compare information
technology spending across the Federal Government.
For the Exhibit 53, the agency should classify each information technology investment as either
major or nonmajor. The OMB defines a major information technology investment as one that
requires special management attention because of certain attributes, including the importance to
an agency’s mission; external visibility; and high development, operating, or maintenance cost.
According to the IRS’ CPIC process for acquiring and maintaining information technology
property, the IRS classifies a project as a major information technology investment if the annual
investment exceeds $5 million or the total life cycle cost exceeds $50 million. Major
information technology investments require a more stringent CPIC process, including increased
executive oversight and the preparation of a detailed Capital Asset Plan and Business Case,
commonly referred to as an Exhibit 300.


16
   Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C.,
15 U.S.C., 16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C.,
42 U.S.C., 44 U.S.C., 49 U.S.C., 50 U.S.C.).
17
   The CPIC is a management process for the ongoing identification, selection, control, and evaluation of
investments in information resources focused on agency missions and achieving specific program outcomes.
                                                                                                          Page 13
                    The Excise Files Information Retrieval System Has Not Been
                                      Effectively Implemented



The IRS currently classifies the ExFIRS as a nonmajor information technology investment on its
Exhibit 53 because the Highway Trust Fund investment amounts were not considered during the
CPIC classification process. However, once the Highway Trust Fund monies are combined with
the IRS investments, the ExFIRS Project meets the IRS’ CPIC cost thresholds for a major
information technology investment. For example, the ExFIRS Project Office spent over
$6 million in FY 2004 on ExFIRS development and the total life cycle cost of the ExFIRS
Project will exceed $50 million. In addition, the importance of the ExFIRS to the IRS’ mission
and the high external visibility of the development effort warrant its consideration as a major
information technology investment for OMB reporting purposes.
Since the ExFIRS Project involves intragovernmental payments (i.e., Department of
Transportation payments to the IRS from the Highway Trust Fund), the Department of
Transportation should have included the ExFIRS on its Exhibit 53 and reflected the
reimbursement amount provided from the Highway Trust Fund to the IRS. To avoid double
counting, the IRS should have inserted a narrative in its Exhibit 53 to reflect the reimbursable
amount received from the Highway Trust Fund. The IRS should also be responsible for
preparing and submitting the Exhibit 300 to the OMB, while the Department of Transportation
would reflect a line item on its Exhibit 53 indicating the funds are part of a multiagency business
case. By not being properly classified, the ExFIRS Project development effort is not receiving
the necessary level of IRS executive oversight and monitoring to ensure efficient resource use
and maximized rates of return.

The Federal Highway Administration should have increased involvement in
program management and financial oversight

In September 1998, the IRS and the Department of Transportation signed a Memorandum of
Understanding that assigned joint oversight responsibility to the Federal Highway
Administration Director, Office of Transportation Policy Studies, and the IRS Director, Specialty
Taxes, for reviewing the development and implementation of Motor Fuel Tax Evasion Project
activity. In addition, the IRS was required to form a stakeholder workgroup on ExFIRS design
and development by October 1, 1998, that would include the Federal Highway Administration as
a participant. The Federal Highway Administration has also issued policies establishing general
stewardship18 and oversight responsibilities for projects, including process reviews, project
evaluations, and program management activities.
Since the TEA-21 contained limitations on the Department of Transportation involvement in the
development and implementation of the ExFIRS (i.e., the Department of Transportation could
not impose any conditions on the use of funds by the IRS, the IRS would develop and maintain

18
  Stewardship activities include continuous process improvement initiatives, performance measurement, and project
involvement activities to ensure the efficient and effective management of the public funds.
                                                                                                        Page 14
                 The Excise Files Information Retrieval System Has Not Been
                                   Effectively Implemented



the ExFIRS through contracts, and the ExFIRS would be under the control of the IRS), the
Federal Highway Administration did not consider the ExFIRS to be a Federal Highway
Administration system development activity. Aside from providing the funding, Federal
Highway Administration management viewed their role as encouraging the development of a
relationship between the IRS and external stakeholders (i.e., State revenue and transportation
departments and industry). As a result, the Federal Highway Administration relied on the IRS
and its contractors to design, develop, implement, and provide program oversight for the ExFIRS
Project. For example, the Federal Highway Administration has attended only a limited number
of the required ExFIRS working group sessions headed by the IRS, does not maintain any formal
project management and oversight documents, and did not establish any performance measures
to assess the ExFIRS’ effectiveness or return on investment. The Associate Administrator for
Policy and Governmental Affairs, Federal Highway Administration, explained that since the IRS
is responsible for the collection of the fuel-related excise taxes, the Federal Highway
Administration believed the IRS would have the best understanding of what would be required of
the ExFIRS to become an enforcement tool for Federal and State excise tax compliance efforts,
including the establishment of performance measures that would be more appropriately
developed as the system was closer to becoming fully operational. The Associate Administrator
for Policy and Governmental Affairs also explained the Federal Highway Administration
attended those ExFIRS working group sessions where specific Federal Highway Administration
activities were planned, received yearly updates on the ExFIRS Project as part of the Joint
Federal/State Motor Fuel Tax Compliance Steering Committee and through meetings of the
Federation of Tax Administration Motor Fuel Tax Section, and was in regular contact with the
IRS and members of the ExFIRS working group.
In addition, the IRS has not included the Federal Highway Administration as a participant in IRS
executive oversight committees responsible for monitoring the development and implementation
of the ExFIRS or provided program evaluations of the ExFIRS development effort. The IRS’
accounting to the Federal Highway Administration on how the Highway Trust Fund monies have
been spent has also been limited. The recent legislation that will continue providing funding
from the Highway Trust Fund to the IRS through FY 2009 for the Motor Fuel Tax Evasion
Projects increases the IRS’ reporting requirements to the Department of Transportation. Federal
Highway Administration management believes the financial accountability and ExFIRS Project
status reporting provisions included in the legislation will make the IRS more accountable and
enhance their oversight of the ExFIRS Project. For example, the legislation requires the IRS to
submit to the Secretary of the Department of Transportation an annual report describing the
current status of the Motor Fuel Tax Evasion Projects and specifying the estimated annual yields.




                                                                                         Page 15
                     The Excise Files Information Retrieval System Has Not Been
                                       Effectively Implemented




Key project management documents should be improved to meet system
development life cycle requirements

A key goal of the Clinger-Cohen Act of 1996 is that organizations should have processes and
information in place to help ensure information technology projects are being implemented at
acceptable costs and within reasonable and expected time periods. Department of the Treasury
Publication 84-01, Information System Life Cycle Manual, issued in July 1994 states project
management documentation is an integral part of the system development process. For example,
a realistic schedule and cost estimate is essential so goals can be set and measured based on a
comparison between planned and actual costs and completion dates. In addition, project plans
are necessary to communicate status and direction and to allow management to verify if
appropriate progress is being made during the development process. The IRS Internal Revenue
Manual section containing the policies and procedures for system development efforts states the
IRS will follow the guidance specified by the Department of the Treasury.
The Chief, Excise Tax Operations, advised us that the ExFIRS Project Office prepared the
project management documentation required by the IRS at the time the project was initiated.
The ExFIRS Project Office explained the project management documentation was prepared
following military standards and was tailored to meet both IRS and Carnegie Mellon Software
Engineering Institute19 Capability Maturity Model Integration20 requirements. A recent review
by the Carnegie Mellon Software Engineering Institute found the primary contractor for the
ExFIRS Project met level 221 of the Capability Maturity Model Integration requirements. The
ExFIRS Project Office also maintained information system life cycle documents considered
essential to effective project management. For example, the ExFIRS Project Office developed a
Risk Management Plan and prepared monthly status reports. However, some key project
management documents required by Department of the Treasury Publication 84-01 were not
initially prepared for the ExFIRS Project and are still incomplete and/or inaccurate. For
example:
     •   Project Management Plan: The ExFIRS Project Office prepared a project management
         plan, but the plan does not contain all the required elements, including the life cycle


19
   The Carnegie Mellon Software Engineering Institute is a Federally funded research and development center
sponsored by the Department of Defense. Its core purpose is to help others make measured improvements in their
software engineering capabilities.
20
   The purpose of the Capability Maturity Model Integration is to provide guidance for improving an organization’s
processes and the ability to manage the development, acquisition, and maintenance of products or services.
21
   A capability level 2 process is characterized as a “managed process,” which is a performed process that is also
planned and executed in accordance with policy; employs skilled people having adequate resources to produce
controlled outputs; involves relevant stakeholders; is monitored, controlled, and reviewed; and is evaluated for
adherence to its process description.
                                                                                                          Page 16
                 The Excise Files Information Retrieval System Has Not Been
                                   Effectively Implemented



       methodology, life cycle phases and milestones, and project schedule and target
       completion dates.
   •   Work Breakdown Structure: The work breakdown structure does not reflect all current
       project activities and shows the earliest start date for the ExSTARS as June 25, 2001,
       although development activities began in FY 1999 and the IRS reported the ExSTARS
       was implemented on April 1, 2001. Also, a summary (i.e., high-level) work breakdown
       structure used for management presentations was not prepared.
   •   Business Case: A business case for the ExFIRS Project was completed March 3, 2003.
       However, the costs are not tied to specific milestones, deliverables, and due dates. In
       addition, the business case does not contain all required components. For example, the
       business case does not include specific project deliverables that are defined and traceable
       to specific project phases and releases and does not include a project schedule that clearly
       shows the timing of the releases, including business-critical dates, integration dates, and
       all major project milestones.
   •   Capacity Study: A capacity study and stress test were not completed for the ExSTARS
       to ensure system capacity will be sufficient prior to the electronic filing mandate on
       January 1, 2006. The ExFIRS Project Manager stated the IRS has never reached
       maximum capacity and has more than sufficient capacity for the processing of
       information.
As a result, the IRS does not have a baseline cost estimate and schedule, which is necessary to
determine whether the ExFIRS Project is on schedule and within budget. The ExFIRS Project
Office stated a business case was not initially prepared because development of the ExFIRS was
mandated by legislation and the Project Office was not required to prepare a business case to
obtain funding from both the Department of Transportation and the IRS for the system
development effort. It was not until later in 2002 that the ExFIRS Project Office began
preparing a business case for the Project to continue receiving IRS funding. The ExFIRS Project
Office also explained a project schedule was not prepared because it did not know how long the
Project would take to complete or how much the system would cost and the contractor did not
provide specific due dates for the deliverables. Instead, due dates were determined as tasks were
completed. In addition, unless a stress test is conducted, the IRS does not have assurance the
system capacity will be sufficient once electronic filing is required on January 1, 2006.
Without the proper amount of executive oversight and complete and accurate project
management documentation, the IRS increases the risk the ExFIRS Project will incur cost
overruns and schedule slippage. The ExFIRS may also not accomplish its primary objective to
improve motor fuel excise tax compliance.
On June 28, 2005, we were advised the ExFIRS Project was to move out of the development and
implementation phase and into the operations and maintenance phase around October or


                                                                                           Page 17
                 The Excise Files Information Retrieval System Has Not Been
                                   Effectively Implemented



November 2005. Once this transition occurs, the Modernization and Information Technology
Services (MITS) organization will assume responsibility for the ExFIRS Project.


Recommendations
Recommendation 4: The Chief Information Officer (CIO) should elevate the ExFIRS to a
major information technology investment, update the Exhibit 53, and prepare an Exhibit 300.
       Management’s Response: The CIO agreed with this recommendation, stating the
       ExFIRS Project Manager will update the Exhibit 53 to reclassify the ExFIRS as a major
       project and prepare an Exhibit 300.
Recommendation 5: The Commissioner, SB/SE Division, should work with the CIO to
determine which executive steering committee will be responsible for the ExFIRS Project while
the Project is being developed and include a representative from the Federal Highway
Administration on the executive steering committee. When the ExFIRS Project moves to
operations and maintenance status, the Federal Highway Administration should be involved with
program management and executive oversight and provided periodic status reports as requested
by the Federal Highway Administration to assess the progress of the ExFIRS Project and support
continued funding. The planned revisions to the Memorandum of Understanding between the
IRS and the Federal Highway Administration should include these requirements.
       Management’s Response: The IRS partially agreed with this recommendation,
       stating the IRS will maintain responsibility for the program management, executive
       oversight, and periodic status reporting. However, a representative from the Federal
       Highway Administration will participate as a member of the appropriate executive
       steering committee for the ExFIRS Project. In addition, the IRS will reflect the
       requirements of the partnership between the IRS and Federal Highway Administration in
       the revised Memorandum of Understanding to ensure the needs of both agencies are
       considered as the IRS plans and implements actions to improve fuel tax compliance.
       Office of Audit Comment: While IRS management did not completely agree with the
       recommendation, we believe the corrective actions they plan to take will address the
       recommendation.
Recommendation 6: The Commissioner, SB/SE Division, should ensure the ExFIRS Project
Office updates appropriate project management documents (i.e., project management plan and
work breakdown structure), as required during the development phase; conducts a stress test to
ensure sufficient system capacity; completes a transition plan for moving the Project to
operations and maintenance status; and schedules a postimplementation review.
       Management’s Response: The CIO agreed with this recommendation, stating that as
       the IRS transitions the systems development, operations, and maintenance of the ExFIRS

                                                                                       Page 18
                        The Excise Files Information Retrieval System Has Not Been
                                          Effectively Implemented



           Project from the SB/SE Division to the MITS organization any gaps in proper project and
           systems management documentation will be identified and corrected by the MITS
           organization. After the transition, any new development will be managed under the
           Business Systems Modernization (BSM) Enterprise Life Cycle discipline and follow
           appropriate tailoring plans to ensure development of proper project management,
           transition, and systems management documentation.
           Office of Audit Comment: IRS management did not specifically comment on our
           recommendation to complete a transition plan, conduct a stress test, and schedule a
           postimplementation review. We believe these actions are needed to assure an effective
           transition to the MITS organization and to verify the ExFIRS system is working properly.


The Project Office Should Incorporate More Performance-Based
Services Acquisition Principles for Acquired Services

For FY 2005, the OMB established a goal requiring all agencies to apply performance-based
services acquisition methods on at least 40 percent of eligible service actions over $25,000 to
include contracts and task orders.22 In addition, the Federal Acquisition Regulation (FAR)23
requires agencies to use performance-based services acquisition methods to the maximum extent
practicable when acquiring services. The FAR explains performance-based services acquisition
methods are preferred because they are intended to ensure required performance quality levels
are achieved and total payment is related to the degree to which services performed meet contract
standards.
The FAR requires agencies to describe requirements in terms of results rather than process; use
measurable performance standards, use quality assurance monitoring plans, and prepare
performance evaluations; provide for reductions of fees or price; and include performance
incentives where appropriate. Agencies are also required to prepare interim evaluations to
provide current information for source selection purposes for any contract period of performance,
including options, exceeding 1 year. In addition, the IRS Office of Procurement states the
success of using performance-based services acquisition is heavily dependent on the use of
performance-based statements of work that define the needs through required outcomes, along
with well-formulated contract administration plans that make cost-effective use of resources to
measure contractor performance.




22
     A task order is an order for services placed against an established contract or with Federal Government sources.
23
     48 C.F.R. pt 1-53 (2002).
                                                                                                              Page 19
                      The Excise Files Information Retrieval System Has Not Been
                                        Effectively Implemented



The task orders awarded to the primary contractor for the ExFIRS Project are
cost-plus-fixed-fee contracts24 for nearly $39 million, and the contracts awarded to the secondary
contractor are time and materials contracts25 for approximately $2.7 million. In addition, the
ExFIRS Project primary and secondary contractors have been providing contracted services for
over 6 years, but the contract types awarded have not changed. Although these contract types
may have been appropriate during the initial planning and development stages, regulations state
that such contracts are generally not appropriate once it is determined the development is
achievable, firm performance objectives and schedules have been established, and the duration
and extent of work and anticipated costs can be accurately estimated. Instead, the use of a
firm fixed-price26 contract would be more suitable since it would provide maximum incentive for
the contractor to control costs and perform effectively.
The ExFIRS Project Office generally included the elements recommended for a
performance-based work statement in the statements of work27 prepared for each of the
contractors providing services. For example, the statements of work consistently defined the
requirements in terms of desired results rather than methods of work performance. However, the
statements of work did not consistently document performance standards and acceptable quality
levels, and when documented, they were not measurable. In addition, the acceptance criteria
section of some statements of work defined requirements for the format, accuracy, clarity, and
timeliness of the deliverables in nonmeasurable terms, and the due dates for the deliverables
were generally not specific (i.e., as needed and as mutually agreed). The statements of work for
the primary contractor also did not include due dates for the deliverables or acceptance criteria.
Without measurable performance standards identified in the statements of work, the ExFIRS
Project Office cannot effectively monitor contractor performance, which may have contributed to
the cost overruns and schedule delays experienced by the ExFIRS Project.
The Office of Federal Procurement Policy best practices support allowing the contractor to
prepare the quality assurance plan and report on the monitoring of services provided; however,
Federal Government oversight is required to confirm monitoring results. The quality assurance
plan prepared for the ExFIRS Project by the primary contractor defines the contractor’s quality
program activities for ensuring the quality of the software products and production processes.
The primary and secondary contractors also provide monthly and quarterly progress/status
reports identifying actions completed for the last month and significant assignments and

24
   A cost-plus-fixed-fee contract is a cost-reimbursement contract that provides for payment to the contractor of a
negotiated fee that is fixed at the inception of the contract. The fixed fee does not vary with actual cost but may be
adjusted as a result of changes in the work to be performed under the contract.
25
   A time and materials contract provides for direct labor hours at specified fixed hourly rates (wages, overhead,
general and administrative expenses) and for materials (including handling costs) at cost.
26
   A firm fixed-price contract provides for a price that is not subject to any adjustment on the basis of the
contractor’s cost experience in performing the contract. This contract type places maximum risk and full
responsibility on the contractor for all costs and resulting profit or loss.
27
   A statement of work is a written description of the IRS’ minimum requirements that are to be met by contract.
                                                                                                              Page 20
                    The Excise Files Information Retrieval System Has Not Been
                                      Effectively Implemented



activities planned for the next month as required in the statements of work. However, the
Contracting Officer’s Technical Representative28 has not provided any documented reviews of
these reports assessing whether the Project is on course, measuring performance levels,
identifying trends of performance-related inefficiencies, and making necessary modifications.
For example, the ExFIRS Project Office worked with a contractor to form a Data Perfection
Team to review monthly error listings generated from the monthly submission of information
documents to the ExSTARS. The Data Perfection Team was also responsible for educating the
reporting companies to address the data inaccuracies. However, our review of the monthly status
reports found the process was apparently ineffective because the Data Perfection Team was
reviewing the same companies in February 2005 it reviewed during the first 3 months of the
contract (i.e., June - August 2003). Since this is a time and materials contract, the contractor has
no positive profit incentive for cost control or labor efficiency. Management stated converting to
a firm fixed-price contract is not possible because the specific actions required by the contractor
to resolve recurring problems may not be determinable.
As a result of our prior audit reviewing the use of performance-based services acquisition
techniques to manage task orders in the BSM program,29 the IRS issued firm fixed-price
contracting guidance to ensure increased delivery and performance in the BSM program, which
includes implementing a firm fixed-price contracting policy; creating performance-based work
statements; developing measurable performance standards, performance incentives, and
monitoring plans; and evaluating contractor performance. While this guidance was issued for
use in the BSM program, we believe it provides valuable guidance for increasing the use of
performance-based services acquisition principles for the SB/SE Division contracting activities.
In addition, it will assist the IRS in attaining the FY 2005 performance-based services acquisition
goal established by the OMB.
Without measurable performance standards and appropriate monitoring of contractor
performance, the IRS has no reasonable assurance that efficient methods and effective cost
controls are being used. As a result, the IRS is essentially taking most of the risk in the ExFIRS
development effort, which could result in higher costs, as opposed to a firm fixed-price contract
in which the maximum risk is placed on the contractor.




28
   A Contracting Officer’s Technical Representative performs a key function in the contract award and
administration process by ensuring contractors fulfill contract terms and conditions and taxpayer dollars are
prudently spent.
29
   Additional Improvements Are Needed in the Application of Performance-Based Contracting to Business Systems
Modernization Projects (Reference Number 2002-20-170, dated September 2002).
                                                                                                     Page 21
                 The Excise Files Information Retrieval System Has Not Been
                                   Effectively Implemented




Recommendation
Recommendation 7: The Commissioner, SB/SE Division, in coordination with the CIO and
the Director, Procurement, should ensure the ExFIRS Project Office includes measurable
performance standards in statements of work, clearly defines deliverables, implements an
effective plan for monitoring contractor performance, and moves to firm fixed-price contracts.
       Management’s Response: The IRS partially agreed with the recommendation,
       stating the MITS organization will ensure statements of work include measurable
       performance standards and deliverables are clearly defined. In addition, upon transition
       of the ExFIRS Project, and as operation and maintenance progresses, the MITS
       organization will enter firm fixed-price contracts when possible following the guidance
       issued on April 30, 2004, which established BSM policy on firm fixed-price contracting.
       If entering a firm fixed-price contract is not possible, the IRS will seek to use the
       appropriate performance-based contracting approach.
       Office of Audit Comment: While IRS management did not completely agree with the
       recommendation, we believe the corrective actions they plan to take will address the
       recommendation.




                                                                                        Page 22
                 The Excise Files Information Retrieval System Has Not Been
                                   Effectively Implemented




                                                                                Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) is effectively managing Motor Fuel Tax Evasion Project funds to develop the Excise Files
Information Retrieval System (ExFIRS) and enhance motor fuel excise tax enforcement. To
accomplish this objective, we:
I.     Evaluated the effectiveness of the project management controls surrounding the
       development of the ExFIRS.
       A. Reviewed key project management documents (e.g., project management plan,
          project schedule, milestone concurrence) and interviewed ExFIRS Project Office
          management to determine whether the documents were completed and approved prior
          to/during the development and implementation of the ExFIRS.
       B. Reviewed the business case to determine whether it contained required components,
          project life cycle cost estimates were sufficiently supported, and it was formally
          approved prior to initiation of the ExFIRS Project.
       C. Interviewed Federal Highway Administration and ExFIRS Project Office
          management and reviewed ExFIRS system requirements and acceptance-related
          documentation to determine whether the system requirements were reviewed and
          approved by the stakeholders (i.e., Federal Highway Administration, States, and
          industry).
       D. Interviewed ExFIRS Project Office management and reviewed project phase
          completion dates, actual costs, associated contracts, task orders, performance work
          statements, and contractor evaluations to determine whether the ExFIRS Project was
          effectively managed to control project costs and schedules.
       E. Reviewed Federal Highway Administration requirements governing oversight of
          Motor Fuel Tax Evasion Projects and interviewed Federal Highway Administration
          management to determine whether the Federal Highway Administration was
          sufficiently involved and provided effective oversight of ExFIRS development and
          implementation.
       F. Interviewed ExFIRS Project Office management and met with representatives from
          the Federal Highway Administration, industry, and States to determine whether
          stakeholder issues and concerns regarding ExFIRS development were adequately
          addressed.


                                                                                        Page 23
                    The Excise Files Information Retrieval System Has Not Been
                                      Effectively Implemented



II.     Assessed whether the ExFIRS enhanced enforcement efforts to increase motor fuel excise
        tax revenue for the Highway Trust Fund.
        A. Interviewed personnel from the Criminal Investigation Division, Office of Excise Tax
           Operations, and ExFIRS Project Office to identify motor fuel excise tax examination
           and investigation cases generated from the ExFIRS.
        B. Reviewed reports containing motor fuel excise tax cases identified and selected for
           examination and interviewed Office of Excise Tax Operations personnel to determine
           the numbers and results of motor fuel excise tax cases identified, selected, and/or
           forwarded to a field office for inclusion in the examination inventory each year since
           1998, including the numbers generated by the ExFIRS.
        C. Reviewed reports containing the results of the motor fuel excise tax investigations
           and interviewed Criminal Investigation Division personnel to determine how many
           motor fuel excise tax cases were referred to the Criminal Investigation Division, the
           number of cases accepted, and the investigation results including the specific results
           of those cases generated by the ExFIRS for each year since 1998.
        D. Interviewed Criminal Investigation Division and Office of Excise Tax Operations
           personnel to determine whether performance measures were established to assess the
           results of the motor fuel excise tax examinations and investigations.
        E. Interviewed personnel from the Data Perfection Team,1 Office of Excise Tax
           Operations, and ExFIRS Project Office to determine what analyses has been
           completed on the data obtained since the implementation of the Excise Summary
           Terminal Activity Reporting System and whether the results were used to enhance
           fuel tax enforcement efforts.
III.    Identified Motor Fuel Tax Evasion Project funds provided by the Department of
        Transportation to the IRS during Fiscal Years 1998 through 2004; reviewed ExFIRS
        Project Office records and IRS financial accounting system reports; and met with
        management from the Federal Highway Administration, Office of Excise Tax Operations,
        and ExFIRS Project Office to determine whether the IRS used the Highway Trust Fund
        funding in accordance with legislative guidelines and other governing criteria.




1
  The Data Perfection Team was formed by the ExFIRS Project Office to correct inaccuracies associated with
information documents received by the Excise Summary Terminal Activity Reporting System and to ensure future
documents were transmitted accurately.

                                                                                                     Page 24
                 The Excise Files Information Retrieval System Has Not Been
                                   Effectively Implemented



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Program)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Van Warmke, Lead Auditor
Beverly Tamanaha, Senior Auditor
Tina Wong, Senior Auditor
Olivia Jasper, Auditor
Linda Screws, Auditor




                                                                                        Page 25
                The Excise Files Information Retrieval System Has Not Been
                                  Effectively Implemented



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Criminal Investigation SE:CI
Associate Chief Information Officer, Business Systems Development OS:CIO:I:B
Associate Chief Information Officer, Management OS:CIO:M
Director, Capital Planning and Investment Control OS:CIO:R
Director, Communications, Liaison, and Disclosure SE:S:CLD
Director, Specialty Programs SE:S:SP
Director, Stakeholder Management OS:CIO:SM
Chief, Excise Tax Operations SE:S:SP:EX
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Small Business/Self-Employed Division SE:S
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                Page 26
                  The Excise Files Information Retrieval System Has Not Been
                                    Effectively Implemented



                                                                                  Appendix IV

         Subsystems of the Excise Files Information
                    Retrieval System

The Excise Files Information Retrieval System (ExFIRS) is an umbrella system made up of
nine subsystems that support the collection of motor fuel industry information, automated
analysis of this information, and identification of areas with the highest risk for nonpayment of
excise taxes.
1.   Excise Fuel Online Network (ExFON) – The ExFON is an integrated case processing and
     tracking system used by the fuel compliance officers and group managers for the Dyed
     Diesel Program.
2.   Excise Summary Terminal Activity Reporting System (ExSTARS) – The ExSTARS
     requires a monthly information document from fuel terminal operators and carriers detailing
     the receipts and disbursements of liquid products passing through a taxable fuel storage and
     distribution facility. The information documents can be filed on paper or electronically.
     Return information is provided to the States in accordance with appropriate disclosure laws.
3.   Excise Tax Online Exchange (ExTOLE) – The ExTOLE is a repository of State records
     housed by the Internal Revenue Service (IRS). The data come from the States but are
     available to other States and the IRS, under disclosure agreements.
4.   Excise Tax Registration Authentication System (ExTRAS) – The ExTRAS is a centralized
     database containing information relating to Application for Registration (For Certain Excise
     Tax Activities) (Form 637). The ExTRAS provides centralized data entry, monitoring, and
     reporting of all Form 637 registrants. These registrants are allowed to buy, tax free, goods
     otherwise subject to excise tax, with the obligation to pay the tax when the goods are resold.
     Excise Tax Program personnel can research and track the registration status of all Form 637
     registrants. These registrants include manufacturers or buyers/resellers of sport fishing
     equipment, gas-guzzler or luxury automobiles, vaccines, and tires, as well as those engaged
     in the fuel businesses. Form 637 submissions are also scanned.
5.   Excise Tax Agent Center (ExTAC) – The ExTAC automates the processes used to work
     cases/returns selected for review. A case will move from classification, to the group
     manager, to the revenue agent who will conduct the review. Revenue agents and managers
     will work/review cases and save work in progress on the user workstation and on the
     ExFIRS.
6.   Excise Compliance Inventory Delivery System (ExCIDS) – The ExCIDS is a
     computer-based case delivery system that will feed the ExTAC. The design calls for paper

                                                                                           Page 27
                  The Excise Files Information Retrieval System Has Not Been
                                    Effectively Implemented



     returns to be scanned and delivered directly into an inventory queue for group managers to
     assign to revenue agents. Additionally, the ExCIDS will provide a means of delivering,
     tracking, controlling, and managing the workload for the Excise Tax Program management
     office.
7.   Below the Rack Information Sharing (BTRIS) – The BTRIS application supports fuel
     fingerprinting efforts – a critical part of compliance efforts aimed at “cocktailing” and
     illegal blending. Using chemical gas chromatogram technology, the application
     incorporates an automated, pattern-matching capability to assist users in comparing diesel
     fuel samples to terminal references or stored adulterated samples. The outcome of this
     comparison is a Fuel Fingerprint Library.
8.   Excise Management Information System (ExMIS) Data Warehouse and Operational
     Database – The ExMIS Data Warehouse and Operational Database provides a common data
     management solution, from disparate legacy databases and information stores, created from
     a variety of sources. The ExMIS Data Warehouse and Operational Database contains
     information gathered from the various ExFIRS applications (ExFON, ExTAC, ExTRAS,
     and ExSTARS), as well as IRS sources and United States Customs import information,
     pertaining to taxable commodities.
9.   Excise Compliance Information System (ExCIS) – The ExCIS provides Quarterly Federal
     Excise Tax Return (Form 720) data to the ExMIS Data Warehouse and Operational
     Database.




                                                                                          Page 28
    The Excise Files Information Retrieval System Has Not Been
                      Effectively Implemented



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 29
The Excise Files Information Retrieval System Has Not Been
                  Effectively Implemented




                                                      Page 30
The Excise Files Information Retrieval System Has Not Been
                  Effectively Implemented




                                                      Page 31
The Excise Files Information Retrieval System Has Not Been
                  Effectively Implemented




                                                      Page 32
The Excise Files Information Retrieval System Has Not Been
                  Effectively Implemented




                                                      Page 33
The Excise Files Information Retrieval System Has Not Been
                  Effectively Implemented




                                                      Page 34
The Excise Files Information Retrieval System Has Not Been
                  Effectively Implemented




                                                      Page 35
